                   January 29, 2003

                   KEITH STRANGE
                   VICE PRESIDENT, SUPPLY MANAGEMENT

                   DAVID L. SOLOMON
                   VICE PRESIDENT, NEW YORK METRO AREA
                    OPERATIONS

                   SUBJECT: Management Advisory – New York
                            Metro Area Operational Use of Trailers
                            (Report Number TD-MA-03-001)

                   This report presents results from our management advisory
                   of New York Metro Area Trailer Acquisition – Operational
                   Use of Trailers (Project Number 02YG019TD001). The
                   objective of the review was to determine if the New York
                   Metro Area effectively utilized common fleet trailers for
                   transporting mail and equipment.

                   On March 27, 2002, the Office of Inspector General (OIG)
                   received a congressional request asking the OIG to
                   determine if the proposed acquisition of trailers is in the best
                   interest of the Postal Service considering the financial and
                   operational needs of the agency. This management
                   advisory is the third in a series of reports.

Results in Brief   The New York Metro Area did not effectively utilize common
                   fleet trailers. Specifically, we found the New York Metro
                   Area contracted for more trailers than needed to transport
                   mail and equipment, resulting in at least $2.2 million in
                   unnecessary annual transportation costs. This occurred
                   primarily because Postal Service used the common fleet
                   trailers for on-site equipment storage instead of mail and
                   equipment transport.

                   We recommended New York Metro Area management
                   explore alternative methods for storing mail transportation




                            Restricted Information
New York Metro Area Operational                                                                    TD-MA-03-001
 Use of Trailers


                                 equipment and formulate common fleet trailer requirements
                                 based on actual mail and equipment transportation needs.

Background                       The New York Metro Area leases approximately
                                 2,500 common fleet1 trailers. Leases with two contractors
                                 for about 1,800 of these trailers expire in March 2003.
                                 In addition, the New York Metro Area leased over
                                 500 additional trailers to supplement the trailer fleet for
                                 seasonal or emergency use.




                                      LEASED TRAILERS PARKED AT NEW YORK METRO AREA MAIL FACILITY


Objective, Scope, and            The objective of the review was to determine whether the
Methodology                      proposed acquisition would provide operational and/or
                                 financial benefit to the Postal Service. This management
                                 advisory report is the third in a series of reports to provide
                                 Postal Service officials with information regarding the
                                 operational use of common fleet trailers in the New York
                                 Metro Area.

                                 To accomplish our objectives, we analyzed trailer utilization
                                 data contained in the Transportation Information
                                 Management Evaluation System for the period August 6,
                                 2000, to August 5, 2002. We also interviewed Postal Service
                                 officials at Postal Service Headquarters, in the New York
                                 Metro Area, and representatives from trailer companies.
                                 Finally, we visited Postal Service facilities where we
                                 observed trailer utilization. We conducted the review from
                                 April 2002 through January 2003 in accordance with the
                                 President’s Council on Integrity and Efficiency, Quality

1
 The common fleet leased trailers are used to transport mail and equipment exclusively in and around the New York
Metro Area.



                                                        2
                                             Restricted Information
New York Metro Area Operational                                                  TD-MA-03-001
 Use of Trailers


                             Standards for Inspections. We discussed our conclusions
                             and observations with appropriate management officials, and
                             included their comments, where appropriate.

Prior Audit Coverage         Our report, Safety and Security of the Postal Service Leased
                             Trailer Fleet (Report Number TR-AR-01-002), dated
                             March 30, 2001, involved a statistical sample, randomly
                             selected from a universe of 74 contracts and 8,715 trailers,
                             inspected at 28 locations nationwide. We projected that
                             17 percent of trailers leased for transportation were used for
                             storage instead of transportation. We recommended
                             management prohibit the use of transportation trailers for
                             storage. Management agreed with our recommendation and
                             stated mail transport equipment should not be stored in
                             trailers leased for transportation unless it was being staged
                             for transportation to another site.

                             In our report, Leased Trailer Deficiencies in the New York
                             Metro Area (Report Number TR-MA-01-001), dated
                             March 30, 2001, we identified that the New York Metro
                             Area had performed a survey of trailer use and identified
                             41 percent of trailers they leased for transportation were
                             being used for storage. Officials stated they believed this
                             situation indicated facilities were hoarding excess equipment,
                             had inadequate storage, and were paying for trailers not
                             needed. Management agreed with our two suggestions to
                             address the issues involving storing equipment in trailers.

                             Our report, New York Metro Area Trailer Acquisition
                             Requirements (Report Number TD-MA-02-003), dated
                             July 10, 2002, examined the draft purchase plan the
                             New York Metro Area submitted to Postal Service
                             Headquarters in March 2002. We found that the New York
                             Metro Area did not properly analyze or document trailer
                             requirements or their underlying operational need before
                             submitting their acquisition request to headquarters. We
                             made two recommendations to address the issues identified
                             in the report. Management agreed with both of our
                             recommendations.

Operational Use of           The New York Metro Area did not effectively utilize common
Common Fleet                 fleet trailers. Specifically, we found the New York Metro Area
Trailers                     contracted for at least 700 more trailers than needed to
                             transport mail and equipment, which resulted in at least
                             $2.2 million in unnecessary annual transportation


                                                 3
                                      Restricted Information
New York Metro Area Operational                                                          TD-MA-03-001
 Use of Trailers


                             expenditures. This occurred primarily because the Postal
                             Service used the common fleet trailers for on-site equipment
                             storage instead of mail and equipment transport.

                             Based on our analysis of Transportation Information
                             Management Evaluation System (TIMES) data from
                             August 2000 to August 2002, even on the busiest day
                             (December 20, 2001), the New York Metro Area’s
                             2,500 common fleet trailers recorded only about 1,800 trips
                             transporting mail and equipment to and from area facilities.
                             Because individual trailers routinely record two or more trips
                             in a single day, far fewer trailers were used than the number
                             of trips made. Our analysis further revealed about
                             1,800 trips made on December 20, 2001, used only about
                             700 trailers, indicating the New York Metro Area leased far
                             more trailers than necessary to meet mail transportation
                             requirements. The chart below illustrates a comparison of
                             the number of common fleet trailers currently leased with the
                             highest number of trailer trips recorded on any single day as
                             well as the highest number of trailers used on any single day
                             during each month of the period reviewed:
                      New York Metro Highest Single Day Use of Com m on Fleet Trailers
                                   (Per inform ation recorded in TIMES)

   3,000



   2,500                                                                                   T ra ile rs
                                                                                           C urre nt ly
                                                                                           Le a s e d
   2,000



   1,500                                                                                   H ighe s t
                                                                                           N um be r o f
                                                                                           T rips

   1,000



     500                                                                                   H ighe s t
                                                                                           N um be r o f
                                                                                           T ra ile rs
                                                                                           Us e d
       0
           Aug-0
           Sep-0


           Nov-0
           Dec-0




                           May-0



                           Aug-0
                           Sep-0


                           Nov-0
                           Dec-0




                                                                  May-



                                                                  Aug-0
           Oct-0



           Jan-0
                           Feb-0
                           Mar-0
                           Apr-0


                           Jun-0
                           Jul-01



                           Oct-0



                           Jan-0
                                                                  Feb-0
                                                                  Mar-0
                                                                  Apr-0


                                                                  Jun-0
                                                                  Jul-02
                                                                       02
                 0




                                 1




                                 1




                                                                        2
                 1




                                 1




                                 2




                                                                        2
                 0
                 0


                 0
                 0




                                 1
                                 1


                                 1
                                 1




                                                                        2
                                 1
                                 1




                                                                        2
                                                                        2
                                 1




                                           Month




                                                    4
                                         Restricted Information
New York Metro Area Operational                                                                  TD-MA-03-001
 Use of Trailers


                                In a previous OIG management advisory report,2 we
                                identified that New York Metro Area officials had performed
                                their own survey of trailer usage and determined 41 percent
                                of trailers leased for transportation were instead used for
                                equipment storage. We recommended management prohibit
                                storing equipment in trailers leased for transportation. Postal
                                Service Headquarters agreed and stated guidelines would be
                                more clearly defined to reduce the storage of mail
                                transportation equipment in trailers. However, the Postal
                                Service continued using these trailers for storage. We
                                obtained reports at two area facilities3 verifying that, on a
                                daily basis in April and May 2002, an average of 520 trailers
                                were used for on-site storage. We believe that using leased
                                trailers for storage is not cost efficient and gives a false
                                impression of actual transportation costs for the New York
                                Metro Area.




                                    LEASED TRAILERS PARKED AT NEW JERSEY INTERNATIONAL AND BULK MAIL
                                       CENTER AND USED FOR STORAGE OF MAIL TRANSPORT EQUIPMENT


                                We believe the Postal Service should consider alternative
                                methods of storing equipment needed for operations in the
                                New York Metro Area such as:

                                •     Using excess Postal Service-owned trailers for storage.
                                      The 5-year Postal Service vehicle plan includes
                                      replacement for 3,000 trailers between fiscal years
                                      (FY) 2004 and 2006. In addition, we identified several

2
 Leased Trailer Deficiencies in the New York Metro Area (Report Number TR-MA-01-001), dated March 30, 2001.
3
 New Jersey International and Bulk Mail Center and the Dominic V. Daniels Processing and Distribution Center,
New Jersey.



                                                       5
                                            Restricted Information
New York Metro Area Operational                                                                  TD-MA-03-001
 Use of Trailers


                                    transactions in the past 4 years where the New York
                                    Metro Area sold Postal Service owned trailers for
                                    $500 each. If these excess trailers were instead used for
                                    on-site storage, the Postal Service could lease fewer
                                    common fleet trailers.

                                •   Identifying and returning excess mail transportation
                                    equipment to mail transport equipment service centers to
                                    avoid storing this equipment in leased trailers.

                                In addition, a New York Metro Area manager stated common
                                fleet trailer requirements were based on available funding
                                rather than analyzing the actual number of trailers required
                                for transportation needs.

                                According to our estimates, the Postal Service spent
                                approximately $3,2164 annually per trailer to store equipment
                                in hundreds of leased common fleet trailers, which resulted in
                                more than $2.2 million annually or over $4.4 million in a
                                2-year period for unnecessary transportation expenditures.
                                (See Appendix A.)

Recommendation                  We recommend the vice president, New York Metro Area
                                Operations:

                                1. Determine storage requirements for mail transport
                                   equipment maintained for facilities in the New York Metro
                                   Area and explore alternative methods for storing
                                   necessary equipment.

Management’s                    Management agreed with our recommendation. They stated
Comments                        they would:

                                      •    Reassess all mail transport equipment requirements
                                           in the New York Metro Area, complete that analysis
                                           by April 2003, and notify the OIG of resulting
                                           savings.

                                      •    Explore alternatives for storing equipment.




4
 Average cost per trailer is based on actual common fleet lease payments made during FY 2002 accounting
periods 4 through 9 ($8.81 times 365 days per year = $3,215.65).



                                                       6
                                            Restricted Information
New York Metro Area Operational                                                  TD-MA-03-001
 Use of Trailers



                                  •   Direct facility managers to make better use of Postal
                                      Service owned warehouse facilities for equipment
                                      storage.

                             Management disagreed with the magnitude of our findings,
                             but did not quantify their disagreement or support their
                             disagreement with an analysis. Nonetheless, management
                             agreed to conduct such an analysis and agreed the analysis
                             could identify savings. Management’s comments, in their
                             entirety, are included in Appendix B of this report.

Recommendation               We recommend the vice president, New York Metro Area
                             Operations:

                             2. Formulate common fleet trailer requirements based on
                                actual mail and equipment transportation needs and not
                                storage needs.

Management’s                 Management agreed with our recommendation, stated they
Comments                     would reassess trailer requirements, and stated that reducing
                             equipment storage in trailers could “lead to a reduction in the
                             need for trailers.” Management also stated that they would
                             return 300 trailers to suppliers by February 1, 2003, at an
                             estimated annual saving of $1.1 million. Finally,
                             management stated that they disagreed with the OIG’s
                             position that New York Metro Area trailer requirements were
                             not properly analyzed and cited their response to our
                             previously issued report, New York Metro Trailer Acquisition
                             Requirements (Report Number TD-MA-02-003), dated
                             July 10, 2002, which found the New York Metro Area did not
                             properly analyze trailer requirements and recommended they
                             do so.

Evaluation of                Although management disagreed with the magnitude of our
Management’s                 findings, they did not quantify their disagreement or support
Comments                     their disagreement with an analysis consistent with Postal
                             Service policy. Regarding management’s disagreement with
                             our finding New York Metro Area requirements were not
                             properly analyzed or documented, the issue was not a
                             specific finding in this report, but rather a finding in the
                             previous report management cited. In their response to our
                             previous report, management agreed they would perform an
                             analysis consistent with Postal Service policy and work with



                                                  7
                                       Restricted Information
New York Metro Area Operational                                                 TD-MA-03-001
 Use of Trailers


                             Postal Service Headquarters throughout the process. As of
                             the publication date of this report, the New York Metro Area
                             has not completed their analysis.

                             Nonetheless, management agreed with all of the
                             recommendations made in this report. Specifically
                             management agreed to reassess all mail transport
                             equipment and trailer requirements; explore alternatives for
                             storing equipment; make better use of Postal Service owned
                             warehouse facilities; and return 300 trailers to suppliers by
                             February 1, 2003, at an estimated annual savings of
                             $1.1 million. Management’s comments are responsive to our
                             recommendations and actions taken or planned should
                             correct the issues identified in the report.

                             The OIG considers recommendations 1 and
                             2 significant and, therefore, requires OIG concurrence
                             before closure. Consequently, the OIG requests
                             written confirmation when corrective actions are
                             completed. These recommendations should not be
                             closed in the follow-up tracking system until the OIG
                             provides written confirmation that the
                             recommendations can be closed.

                             We appreciate the cooperation and courtesies
                             provided by your staff during the review. If you have
                             any questions, or need additional information please
                             contact Joe Oliva, director, Transportation and
                             Delivery, at 703-248-2100, or me at (703) 248-2300.



                             B. Wayne Goleski
                             Assistant Inspector General
                              for Core Operations

                             cc: Paul E. Vogel
                                 Anthony M. Pajunas
                                 Michael F. Spates
                                 J. Dwight Young
                                 Hector M. Martinez
                                 Susan M. Duchek




                                                 8
                                      Restricted Information
New York Metro Area Operational                                                                         TD-MA-03-001
 Use of Trailers


           APPENDIX A. COST OF EXCESS TRAILERS NOT USED TO
                    TRANSPORT MAIL AND EQUIPMENT
                                                                   High Number of Trailers Used on
            High Number of Trips on any                              any Day During Month (per
Month/Year Day During Month (per TIMES)                                       TIMES)
        08/00                        1,209                                              542
        09/00                        1,270                                              575
        10/00                        1,308                                              564
        11/00                        1,261                                              563
        12/00                        1,454                                              637
        01/01                        1,498                                              609
        02/01                        1,533                                              597
        03/01                        1,597                                              604
        04/01                        1,654                                              619
        05/01                        1,584                                              576
        06/01                        1,555                                              573
        07/01                        1,593                                              590
        08/01                        1,537                                              570
        09/01                        1,456                                              578
        10/01                        1,490                                              606
        11/01                        1,391                                              553
        12/01                        1,783*                                             660*
        01/02                        1,427                                              577
        02/02                        1,457                                              564
        03/02                        1,456                                              570
        04/02                        1,513                                              560
        05/02                        1,522                                              571
        06/02                        1,531                                              571
        07/02                        1,509                                              542
        08/02                        1,338                                              483
*     Denotes Highest 1-Day Activity Recorded in TIMES During the 2-Years Reviewed
                                                                      5
      Average Current Cost per Common Fleet Trailer per Day = $8.81

                                                Common Fleet Trailers Currently Leased Per Day:     2,471
                    Minus Highest Number of Trips Recorded on Any Day During the Past 2 Years:      1,783
                                           Minimum Excess Number of Trailers Currently Leased:        688
               6
      Low-Range Annual Expenditure on Excess Trailers:                688 X $8.81 X 365 days = $2,212,367

                                                   Common Fleet Trailers Currently Leased Per Day:    2,471
                  Minus Highest Number of Trailers Recording Use During Any Day the Past 2 Years:        660
                                             Maximum Excess Number of Trailers Currently Leased:       1,811
    High-Range7 Annual Expenditure on Excess Trailers:                 1,811 X $8.81 X 365 days = $5,823,542

5
  Average based on actual common fleet lease payments made during FY 2002 accounting periods 4 through 9.
6
  Annual savings projection based on reducing leased trailers from current level (2,471) to the highest number of trips
recorded in TIMES on the busiest day the past 2 years.
7
  Annual savings projection based on reducing leased trailers from current level (2,471) to the highest number of
trailers recording use in TIMES on the busiest day the past 2 years (660).



                                                          9
                                               Restricted Information
New York Metro Area Operational                            TD-MA-03-001
 Use of Trailers


                     APPENDIX B. MANAGEMENT’S COMMENTS




                                            10
                                  Restricted Information
New York Metro Area Operational                            TD-MA-03-001
 Use of Trailers




                                            11
                                  Restricted Information
New York Metro Area Operational                            TD-MA-03-001
 Use of Trailers




                                            12
                                  Restricted Information
New York Metro Area Operational                            TD-MA-03-001
 Use of Trailers




                                            13
                                  Restricted Information
